NO.

IN THE SUPREME COURT OF THE UNITED STATES

JONAIR MOORE,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

PROOF OF SERVICE
In accordance with Supreme Court Rule 29.5, David R. Stickman, a member of
the bar of this Court, hereby certifies that on the 20" day of November, 2020, the
Petitioner’s Petition for Writ of Certiorari in the referenced cause was properly
addressed, with prepaid postage, and submitted to Federal Express for overnight delivery
to the Clerk of the Supreme Court of the United States, with additional copies deposited

in a United States Postal Service mailbox located in Omaha, Nebraska, with first class

postage prepaid to:
Jeff Wall Joseph P. Kelly
United States Solicitor General United States Attorney
Room 5614, Department of Justice 1620 Dodge Street
950 Pennsylvania Avenue N.W. Suite 1400
Washington, DC 20530 Omaha, NE 68102-1506

(402) 661-3700
Matt E. Lierman

Assistant United States Attorney
1620 Dodge Street

Suite 1400

Omaha, NE 68102-1506

(402) 661-3700

DATED at Omaha, Nebraska, this 20% day of November, 2020.

JONAIR MOORE, Petitioner,

Mb

DAVID R. CKMAN
Federal Public Defender
Counsel of Record for Petitioner
Suite 300N

222 South 15th Street

Omaha NE 68102

(402) 221-7896

fax: (402) 221-7884

e-mail: david_stickman@fd.org
